   FAA’S EN ROUTE MODERNIZATION
 PROGRAM IS ON SCHEDULE BUT STEPS
CAN BE TAKEN TO REDUCE FUTURE RISKS

       Federal Aviation Administration
        Report Number: AV-2005-066
         Date Issued: June 29, 2005
           U.S. Department of
                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA’s En Route Modernization                                        Date:    June 29, 2005
           Program Is On Schedule But Steps Can Be Taken
           To Reduce Future Risk
           AV-2005-066
  From:                                                                             Reply to
           David A. Dobbs                                                           Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits
    To:    Federal Aviation Administrator


           This report presents the results of our review of the Federal Aviation
           Administration’s (FAA) En Route Automation Modernization (ERAM) program
           plan. The purpose of ERAM is to replace FAA’s existing air traffic control (ATC)
           system for high-altitude air traffic, which is called Host, at its 20 En Route centers
           nationwide.

           We were directed to conduct this review by the Senate Appropriations Committee,
           Subcommittee on Transportation, Treasury and General Government.1 In
           reviewing ERAM, our objectives were to (1) determine whether FAA’s ERAM
           acquisition plan is executable, (2) identify risks to the executability of the
           program, and (3) assure that computer security design issues are being addressed.
           Exhibit A contains our scope and methodology for this review.

           While ERAM is currently on schedule and within budget, we are making a series
           of recommendations to reduce risk with a multi-billion dollar program that will
           span almost 7 years. FAA officials stated that our report reflects a balanced
           assessment of the ERAM program and concurred with the findings and
           recommendations in this report. To enhance executability and reduce risks with
           complex software development, FAA agreed to defer development of advanced
           ERAM capabilities and consider fixed-price agreements to help control costs.
           FAA’s written response to this report is contained in its entirety in the Appendix.

           1
               Senate Report 108-146, “Making Appropriations for the Departments of Transportation, Treasury and General
               Government for FY 2004,” September 8, 2003.


                                                                 i
BACKGROUND
In the past, Congress has been critical of FAA’s management of large and
complex acquisition programs and of the Agency’s inability to deliver projects
within cost and schedule estimates. Most notable among these programs was the
Advanced Automation System (AAS), which FAA dramatically restructured in
1994 after more than $2 billion was spent. More recently, FAA has encountered
significant cost growth and schedule slippage with the Standard Terminal
Automation Replacement System (STARS), which has more than doubled in cost
and schedule length since 1996.2 In its reports for fiscal year (FY) 2004 and
FY 2005, the Senate Appropriations Subcommittee on Transportation, Treasury
and General Government expressed concern about FAA’s ability to deliver ERAM
on time and within budget.3


RESULTS IN BRIEF
Currently, the ERAM program is progressing within cost and schedule parameters.
For the last 2 years, the bulk of the work has focused on replacing a backup
system to the current Host computer. The new backup entered service in April
2005 at Denver. Now, FAA is focusing on the more complex and time consuming
task of developing, testing, and fielding a modern replacement for the entire Host
Computer System. FAA also planned to pursue a number of advanced capabilities
that have yet to be fully defined or priced.

Given the complex software development, testing, and integration required to
replace the Host beginning in 2008, we believe FAA can take steps now while the
program is on track to reduce risk. We are recommending that FAA maximize the
use of fixed-price contracts, defer complex software development, examine ways
to reduce life-cycle costs (by relying on fewer computers), and bolster risk
assessments of ERAM security. FAA officials stated that our analysis reflects a
balanced assessment of the ERAM program and concurred with all of our
recommendations.

At an expected cost of $2.1 billion, the ERAM program is one of the most
expensive and complex acquisitions in FAA’s modernization portfolio. Because
FAA expects the Host computer hardware and software to be obsolete within the
next 5 years, the Agency has placed a high priority on fielding ERAM at all 20
En Route centers nationwide by FY 2011. The Agency is now more than 2 years

2
    OIG Report Number AV-1998-113, “FAA’s Advanced Automation System,” April 15, 1998; and OIG Report
    Number AV-2003-058, “FAA Needs To Reevaluate STARS Costs and Consider Other Alternatives,” September 10,
    2003. OIG reports can be found on our website: www.oig.dot.gov.
3
    Senate Report 108-342, “Making Appropriations for the Departments of Transportation, Treasury and General
    Government for FY 2005,” September 15, 2004.


                                                      ii
into the ERAM effort and spending more than $20 million a month on the
program. Figure 1 displays FAA’s yearly planned investments for ERAM and the
corresponding monthly expenditures, or burn rates, for the next several years.
Figure 1 also shows that beginning in FY 2006, FAA will spend almost
$30 million a month, or almost $1 million per day, developing ERAM.


       Figure 1. FAA’s Planned ERAM Expenditure by Fiscal Year
                 and Corresponding Monthly Burn Rate
                          (Dollars in Millions)


    $500                                                                                    Burn Rate
                                                                    Burn Rate              per Month
                                                                    Per Month               $31.2 M
                                                                    $28.3 M
    $400                                   Burn Rate
                                           per Month
                                            $21.9 M
                   Burn Rate

    $300          per Month
                   $15.6 M



    $200


    $100


     $0
             Fiscal Year 2004        Fiscal Year 2005          Fiscal Year 2006       Fiscal Year 2007




Because of ERAM’s size and importance, any cost increase or schedule delay will
have cash flow implications for the FAA’s entire modernization account. Cost
increases could have a cascading effect on other modernization projects by
limiting new starts and delaying or canceling other projects.

In FY 2009, the Agency plans to begin fielding the first phase of ERAM software
(Release #1) with new hardware and modified workstations to the 20 En Route
centers. FAA is pursuing ERAM through a predominantly cost-reimbursable
contract already valued at about $1.2 billion. Cost-reimbursable contracts place
most of the risk with the Government.4 We note that FAA’s problem-plagued
AAS and, more recently, STARS development also used cost-reimbursable
contract types.     In both cases, requirements and cost growth became
unmanageable.

4
    FAA uses two primary types of acquisition contracts: cost reimbursable and fixed price. A cost-reimbursable
    contract places most of the risk with the Government because the contractor is entitled to be reimbursed for all
    authorized costs, even if the contractor overruns estimates.


                                                         iii
To avoid experiencing similar problems with ERAM, FAA can take proactive
steps to keep this critical effort on track over the next several years.


FAA Can Reduce Risk With ERAM by Maximizing Fixed-Price
Agreements
Our work on a wide range of major acquisitions over the years shows that FAA
has been plagued by an inability to manage long-term complex automation
projects with cost-reimbursable contracts, particularly when requirements are not
well understood. This has led to significant cost growth and unmet expectations
with major acquisitions. Although the ERAM contract is already valued at about
$1.2 billion, the prices of a number of contract elements have not yet been
negotiated. These include, among other things, maintenance, logistic support, and
technical refresh. FAA needs to reduce cost risk with the multi-billion dollar
ERAM by ensuring that requirements are well-defined and maximizing the use of
fixed-priced agreements rather than cost-reimbursable ones for these elements.

Another element of contract management that is critical to ERAM success is
establishing performance criteria early and designing and executing tests that
demonstrate systems meet these criteria before FAA acceptance. We are
concerned about this because in the past FAA has accepted systems that did not
meet its performance criteria or met criteria that were inadequately defined and
then the systems required corrective action.

For instance, FAA accepted the STARS system at some facilities although tests
showed that problems existed.5 Likewise, although FAA’s contractor for the
Advanced Technology Oceanic Procedures (ATOP) system completed factory
acceptance testing 12 months late and numerous problems were identified, FAA
allowed the program to proceed to the next phase, site acceptance. Subsequently,
although FAA declared that ATOP was ready for initial operations at Oakland,
problems persisted.6 Resolving these problems has required FAA to twice
increase its ATOP contract costs.

Thus far, FAA has awarded $5.8 million in incentives to the ERAM contractor for
meeting early schedule and testing milestones for the backup system (called
Enhanced Backup Surveillance) and the schedule for several early engineering
design specifications for the first major ERAM software release. We note,
however, that the level of complexity to deliver the new backup system (with
145,000 lines of code) is far less than can be expected with much of ERAM
Release #1 (with 1.3 million lines) and therefore it may be more difficult to

5
    OIG Report Number AV-2005-016, “Terminal Modernization: FAA Needs To Address Its Small, Medium, and
    Large Sites Based on Cost, Time, and Capability,” November 23, 2004.
6
    OIG Report Number AV-2004-037, “FAA’s Advanced Technologies and Oceanic Procedures,” March 31, 2004.


                                                   iv
achieve. FAA must ensure that ERAM meets both functional and operational
requirements before accepting the system from the contractor. Moreover, the
Agency must not award incentive payments unless the system successfully meets
FAA performance criteria as demonstrated through testing.


FAA Can Reduce Risk With Complex Software Development by
Limiting the Scope of Development
FAA can reduce schedule and technical risk by focusing ERAM development on
the first software release (Release #1). Release #1 is well defined, focuses on Host
replacement, and will provide some capabilities that do not exist today, such as
increased surveillance coverage. We note that in addition to acquiring new
hardware, Release #1 work involves developing, integrating, and testing
1.3 million lines of software code to replace the Host beginning in FY 2009. In
the past, FAA has allowed complex software development to grow without
sufficient consideration being given to cost implications. This was particularly
true with STARS, for which the planned scope of software development grew
from about 800,000 lines of code to more than 1.2 million, with major
ramifications for cost and schedule. While there is still time, the Agency needs to
limit program scope to ensure that ERAM software development does not follow
suit. Figure 2 depicts the breakout and lineage of the 1.3 million lines of new and
reused code that will constitute the software package for ERAM Release #1.


      Figure 2. FAA Estimate for ERAM Release #1 Software
               Breakout of 1.3 Million Lines of Code

     New code or
    modified code
      from User
       Request
    Evaluation Tool
       or other                              Other FAA           Reused code from
                             New/Modified
       En Route                               Program            STARS, ATOP, Micro
    systems in use              577K
                                               Reuse             processor En Route
                                               731K              Automated Radar
                                                                 Tracking System, and
                                                                 other systems to be
                                                                 integrated into ERAM




In November 2004, the ERAM contractor reported a modest increase in the lines
of software, or “code growth,” of about 70,000 lines (or 6 percent of the total).
FAA believes this can be accommodated in the current baseline. A greater


                                         v
concern, however, is that FAA plans to embark on future software development
(Releases #2 and #3 for new capabilities) that has not been defined or priced.
Moreover, although ERAM program officials have allocated about $83 million for
development of the later releases, these remain to be negotiated and so their actual
cost is undetermined. As a result, FAA faces uncertainty about what capabilities
will be included and the affordability of the later software releases.

A combination of factors—code growth, undefined requirements, unspecified
capabilities, and unknown costs—strongly argue for FAA to avoid these
uncertainties and focus on its primary ERAM objective of replacing the Host.
After future requirements become better defined, FAA should then pursue
developing additional capabilities. This is consistent with the FY 2005 Senate
Appropriations Committee Report that calls for FAA to divide ERAM into more
manageable pieces.


A Value-Engineering Analysis of ERAM Is Needed To Optimize
System Design and Identify Potential Cost Savings
The purpose of value-engineering is to analyze a series of design alternatives;
consider appropriate trade-offs among system capabilities, schedules, costs, and
other factors; and recommend the most cost-beneficial technical solutions to a
given problem.7 According to FAA, value engineering is to be performed in the
early stage of system development. Although ERAM is well underway, FAA can
still benefit from applying value-engineering principles to ERAM.

In particular, FAA needs to complete a value-engineering analysis to explore ways
to deploy ERAM computers to support its En Route centers. Currently, FAA
plans to deploy 20 computer systems to its 20 En Route facilities, which is the
Host configuration setup established in the 1960s. However, technological
advances may allow FAA to deploy ERAM computers at fewer than the 20 En
Route centers and for potentially a lower cost. When FAA analyzed ERAM
system design alternatives, it did not consider replacing the 20 Host computers on
other than a one-for-one basis. Consequently, FAA does not know whether its
one-for-one ERAM computer plan represents the most cost-effective way to
deploy the new system. FAA can take steps now to analyze this option,
independent of larger questions about facility consolidation, by examining the
benefits of centralizing computer systems and how savings could be achieved.

FAA also needs to conduct an analysis of the long-term supportability of the Ada
programming language, which Lockheed Martin, the prime contractor, selected for
ERAM. Ada use has declined in recent years, and FAA needs to analyze the

7
    FAA policy directs that the following factors be included in a value-engineering analysis: reliability, testability,
    supportability, survivability, compatibility, and producibility.


                                                           vi
impact this decline may have on ERAM. While Ada is not in immediate danger of
becoming obsolete, it is clearly a specialty language. Therefore, FAA faces a risk
that the number of trained Ada personnel may be limited in the future. In that
case, costs to maintain the ERAM software over its life cycle could increase
significantly.


Significant Work on Developing Effective Computer Security Plans
Needs To Be Done Sooner Rather Than Later
FAA requires that computer security risks associated with acquisition projects be
assessed early and that security plans and requirements be developed to ensure that
the risks are properly mitigated during the system design phase. FAA developed a
preliminary risk assessment for ERAM in 2004. However, the Agency has not yet
completed specific steps called for in FAA guidance to produce mitigation plans
and recommendations that address identified risks.8 In particular, the Agency
needs to develop mitigation plans for certain ERAM assets.9

FAA security planning guidance states that the Agency should develop mitigation
plans for these risks. FAA’s assessment did not include input from field
personnel, which would have significantly bolstered the security assessment.
Failure to take this step could result in increased cost to add improved security
features later in the ERAM development cycle.


SUMMARY OF RECOMMENDATIONS
ERAM is in the early stages of a multi-billion dollar program that will span almost
7 years and completely replace the automation system for managing high-altitude
traffic. FAA faces a number of risks but can take proactive steps to control costs,
stay on track, and set expectations that are consistent with congressional direction.
We are making a number of recommendations aimed at reducing ERAM risks and
increasing the potential to successfully execute the program. The complete list of
these recommendations can be found on page 21. We are recommending that
FAA:

• Maximize the use of fixed-price agreements and ensure requirements are well
  defined to reduce cost risk for elements of ERAM, such as training and
  logistics support, that have not been negotiated. Moreover, FAA must
  withhold award of performance-related incentives and not accept ERAM from

8
    FAA Information Systems Security Program Handbook, Version 3, February 20, 2002, states an asset is defined as
    any person, material, equipment, or information used by a particular system to perform a function to meet an
    organization’s mission.
9
    FAA policy does not allow public identification of assets considered to be at risk.


                                                        vii
   the contractor until the contractor demonstrates that the system meets the
   Government’s performance criteria.

• Focus the scope of ERAM software development and maintenance on
  Release #1 and defer developing additional capabilities until Release #1 passes
  developmental and factory acceptance testing. This could allow FAA to put to
  better use projected funding for Releases #2 and #3. After ERAM Release #1
  is tested and additional capabilities and costs become better defined, FAA
  should pursue developing additional capabilities using fixed-price agreements.

• Complete value-engineering analyses (a) within 12 months for life-cycle cost-
  benefits of fielding ERAM computers at fewer locations than planned, and (b)
  within 6 months for long-term supportability of the Ada programming
  language while developing a contingency plan for migrating ERAM from Ada
  to another software language.

• Engage personnel with En Route operational security experience to participate
  in developing the next release of the ERAM risk assessment and develop
  mitigation plans to protect the system assets deemed critical to ERAM
  operations.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
During our review, we periodically met with FAA officials responsible for
managing the ERAM program. In January, we met with FAA’s Chief Information
Officer and the Vice President for En Route Services to discuss ERAM and the
steps the Agency could take to reduce cost and schedule risk. At that time, FAA
officials agreed that additional steps could be taken to reduce risk with ERAM.

On April 18, 2005, we provided FAA with a draft of our report and held a formal
exit conference to discuss our findings, conclusions, and recommendations. FAA
officials agreed with our analysis and recommendations. They stated that our draft
report reflected a balanced assessment of the ERAM program.

On May 20, 2005, FAA provided us with its formal written response to our draft
report, which is contained in its entirety in the Appendix. FAA concurred with all
five of our recommendations and provided target dates for implementation. FAA
concurred with our recommendation to defer developing additional ERAM
capabilities until the first major software release passes factory acceptance, which
is planned for the third quarter FY 2007. This will help FAA make better use of
the $83 million planned for the later releases, will help manage costs with complex


                                        viii
software development (particularly when requirements are not yet well
understood), and is consistent with Congressional direction.

FAA also concurred with our recommendation to rely more on fixed-price
agreements for elements that have not yet been negotiated. The Agency states that
future ERAM work activities, such as on-site maintenance and contractor logistics
support, will be assessed to determine the appropriate contract pricing strategy,
including fixed price.

In response to our recommendation that FAA not pay incentives unless ERAM
meets performance criteria, the Agency agreed not to award incentives unless the
contract criteria are appropriately satisfied. This is an important commitment.
ERAM program officials have already withheld an award on one occasion after
early testing of the Enhanced Back Up Surveillance (EBUS) revealed some
problems. Since EBUS is the least complex part of the program and future work is
expected to be more difficult, FAA’s willingness to withhold incentive or award
payments will be even more important. The Agency’s continued commitment to
this will help ensure that hardware and software meet FAA’s specifications and
performance criteria when they are delivered and prevent the Agency from having
to fund modifications.

In addition, FAA concurred with our recommendation to conduct a value-
engineering analysis to assess the cost and benefits of deploying ERAM
computers to fewer locations. FAA stated that some initial work is underway and
a cost-benefit study is expected to be complete in the second quarter of FY 2006.
This represents an important opportunity to reduce ERAM costs—without
jeopardizing redundancy or safety—and can be analyzed independent of larger
questions about facility consolidation. It will be important for FAA to fully
evaluate this issue and complete this study on time.

Finally, FAA concurred with our recommendation regarding use of personnel with
operational security experience in its risk mitigation planning. FAA stated that
operational staff will continue to be involved in the validation of all security
documents including the ERAM Security Risk Assessment Plan, which will be
available in the first quarter of calendar year 2008. This is important given that it
is historically more expensive to add security features later than it is to add them
during the system design phase.




                                         ix
ACTION REQUIRED
The actions taken and planned by FAA and the timeframes proposed for
implementation are reasonable and address the intent of our recommendations.
We note that these actions are subject to the follow-up provisions of DOT Order
8000.1C.

We appreciate the courtesies and cooperation of your staff during this review. If
you have any questions concerning this report, please call me at (202) 366-0500 or
Mr. Matt Hampton, Program Director, at (202) 366-1987.

                                        #

cc:   FAA Deputy Administrator
      FAA Chief of Staff
      FAA Chief Operating Officer
      Vice President, En Route Systems
      Anthony Williams, ABU-10




                                        x
                                                                                                          1




                               TABLE OF CONTENTS



FINDINGS .............................................................................................. 1
    Overview: FAA Estimates ERAM Program Will Cost
    $2.1 Billion......................................................................................... 2
    ERAM Program Is Composed of Several Interrelated
    Elements ........................................................................................... 3
    FAA Can Reduce Risk With ERAM by Maximizing
    Fixed-Price Agreements.................................................................... 5
    FAA Can Reduce Risk With Complex Software
    Development by Limiting the Scope of Development ..................... 12
    A Value-Engineering Analysis of ERAM Is Needed To
    Optimize System Design and Identify Potential Cost
    Savings............................................................................................ 16
    Significant Work on Developing Effective Computer
    Security Plans Needs To Be Done Sooner Rather Than
    Later ............................................................................................... 20

CONCLUSIONS AND RECOMMENDATIONS ................................... 21

EXHIBIT A. OBJECTIVES, SCOPE, AND
METHODOLOGY................................................................................. 22

EXHIBIT B. FAA’S PLAN TO TRANSITION FROM HOST
TO ERAM ARCHITECTURE, FY 2005 TO FY 2009 ........................... 24

APPENDIX. MANAGEMENT COMMENTS........................................ 27
                                                                                    1




FINDINGS
The purpose of ERAM is to replace FAA’s existing ATC system for high-altitude
air traffic, which is called Host, at its 20 En Route centers nationwide. At an
estimated cost of $2.1 billion, the ERAM program is the most expensive
acquisition in FAA’s modernization portfolio. Through December 2004, FAA had
obligated approximately $283 million for ERAM. By FY 2007, FAA expects it
will be spending about $30 million a month, or more than $1 million per day. In
FY 2008, FAA plans to begin fielding ERAM. Figure 3 displays FAA’s projected
expenditures for ERAM through FY 2009.


     Figure 3. FAA’s Planned ERAM Facilities and Equipment
                Expenditures, FY 2003 to FY 2009
                       (Dollars in Millions)

       $400                                             375.0    356.9
                                             340.2
       $350

       $300                        262.5
       $250
                                                                           199.3
                         187.7
       $200

       $150
                90.4
       $100

        $50
         $0
              FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008   FY 2009




FAA is pursuing ERAM through a predominantly cost-reimbursable contract,
which places most of the cost risk with the Government, that is currently valued at
about $1.2 billion. To reduce technical risk, FAA is taking a phased approach to
ERAM software development. In FY 2009, the Agency plans to begin fielding the
first phase of ERAM software with new hardware and modified workstations to its
20 En Route centers. Overall, our work shows that:

   • FAA can reduce risk with ERAM by ensuring requirements are well
     defined and maximizing fixed-price agreements,
                                                                                  2


   • FAA can reduce risk with complex software development by limiting the
     scope of development,

   • A value-engineering analysis of ERAM is needed to optimize system
     design and identify potential cost savings, and

   • Significant work on developing effective computer security plans needs to
     be done sooner rather than later.


Overview: FAA Estimates ERAM Program Will Cost $2.1 Billion
ERAM is a complex effort to replace by 2010 the current En Route system, which
consists of the more than 30-year-old Host computer software and its backup, as
well as more than 800 computer workstations at FAA’s 20 En Route centers. (The
Host hardware, but not the software, was upgraded to address Year 2000 computer
issues in the late 1990s.) In addition to replacing Host, FAA expects ERAM to
enhance the flow of air traffic by allowing for more flexible routing of aircraft.
Overall, FAA estimates that designing, acquiring, and deploying ERAM will cost
$2.1 billion.

FAA has designated ERAM as one of the Agency’s highest priority efforts
because replacing the Host before it becomes obsolete and unsustainable is critical
to maintaining safe, orderly, and efficient ATC operations. Host computers
function as the central nervous system of the ATC environment. These computers
process and integrate complex flight plan information and radar data to provide air
traffic controllers with aircraft identification and position information to control
air traffic 24 hours a day, 365 days a year. According to FAA, the Host, both its
computer hardware and software, will reach the end of its useful life in the next
5 years (by 2010) and is increasingly difficult to maintain. FAA intends to replace
the Host backup beginning in 2005.

Between 1998 and 2003, FAA conducted a significant amount of research and
analysis to justify moving forward with the ERAM program. This analysis
included the 2-year Eunomia project, which examined engineering approaches for
replacing the Host. Subsequently, FAA’s Investment Analysis Division conducted
an investment analysis in 2001 and a follow-up analysis in 2002. The two
analyses concluded that FAA would spend about $1 billion more over the life
cycle of the system to try to sustain Host beyond 2010 than the Agency could
expect to spend by moving forward with ERAM. In addition, the Mitre
Corporation conducted a study that concluded that modernizing Host was a
necessity to resolve hardware supportability and enhancement limitations.

To develop and field ERAM, FAA formally awarded Lockheed Martin a sole-
source contract in February 2001. FAA’s rationale justifying its sole-source
                                                                                                                       3


decision was that Lockheed Martin was the only contractor with the necessary
expertise. However, Raytheon successfully challenged the contract award with
FAA’s Office of Dispute Resolution for Acquisition and the General Services
Administration Board of Contract Appeals. In March 2002, FAA issued a
competitive procurement solicitation for ERAM. Raytheon protested the revised
solicitation on the basis that it still favored Lockheed Martin. FAA facilitated a
compromise making Lockheed Martin the prime contractor and Raytheon a sub-
contractor. This agreement cleared the way for the awarding of the ERAM prime
contract to Lockheed Martin in December 2002.


ERAM Program Is Composed of Several Interrelated Elements
The ERAM effort is a composite of several interrelated elements. These include
(1) the Enhanced Back Up Surveillance (EBUS) system to back up the Host until
it is replaced by ERAM in 2009; (2) the En Route Information Display System,
which provides electronically accessible aeronautical and controller operational
information to the air traffic controllers; (3) ERAM Release #1, software that will
begin fielding in 2009 to replace the Host and add certain capabilities; and (4) the
Display System Replacement to provide modified controller workstations
designed to work with Release #1. (A diagram of FAA’s plan to transition from
the Host to the ERAM architecture is included in Exhibit B.)

The major components of ERAM are:

       • The Enhanced Back Up Surveillance System has replaced the existing
         Direct Access Radar Channel (DARC) as the backup to the Host computer
         as of April 2005.10 EBUS is the least complex part of the ERAM program.
         EBUS is based on an existing FAA system called MicroEARTS that is
         deployed in Alaska, Hawaii, Puerto Rico, and Guam. In 2009, when
         ERAM begins replacing Host, EBUS will continue as the En Route backup
         system. FAA plans to remove EBUS when a second ERAM system
         (ERAM B) becomes operational at each site. ERAM B will provide a fully
         redundant backup to the primary ERAM system. The Agency estimates
         hardware and software costs for EBUS to be about $41 million for
         development, deployment, and testing.

            During this audit, we reviewed an allegation that a more cost-effective
            alternative to replacing DARC with EBUS would have been to upgrade
            DARC by adding EBUS-like capabilities. We reviewed the allegation and
            found that (1) three-fourths of the planned expenditures for EBUS had
            already occurred, and (2) the cost estimates and work definition to upgrade

10
     EBUS is necessary because the current backup for the Host does not have critical safety features, such as a conflict
     avoidance warning, mandated by the National Transportation Safety Board.
                                                                                                       4


            DARC were vague and had not been validated. FAA officials were clearly
            aware of this alternative but decided that because EBUS was an
            improvement to a certified ATC system (i.e., MicroEARTS) already in use
            at a number of locations, there was less technical risk in EBUS than in
            upgrading DARC.

       • The En Route Information Display System provides controllers with
         electronically accessible aeronautical and operational information that was
         previously paper-based. FAA currently has three prototypes of this system
         deployed for testing with the Host computer, and deployment is scheduled
         to begin in the second quarter of FY 2006 and to complete by the second
         quarter of FY 2007. FAA estimates the total cost at $62 million. FAA
         expects this system, which will provide information electronically, to
         reduce controller workload by improving access to operational information.

       • The ERAM Software Release #1 will consist of developing the initial
         ERAM software and upgrading computer workstations, with fielding of
         new computer hardware to the 20 En Route centers beginning in 2009.
         This is the most challenging and complex element of ERAM, with
         development (including workstations) estimated to cost approximately
         $797 million and deployment approximately $317 million. Release #1 will
         provide direct one-for-one hardware replacement of the existing Host
         Computer Systems and will provide some enhancements to existing Host
         capabilities. As part of Release #1, decision support systems such as the
         User Request Evaluation Tool (an automated strategic planning and
         decision-making support system for controllers) will be integrated with
         ERAM.

       • The Display System Replacement is needed because computer processors
         within the Host computer workstations that display radar data to controllers
         are approaching the end of their useful life.11 Display System Replacement
         includes the technical refresh of hardware and new software for the Radar
         Position Display to enable improvements in airspace capacity, efficiency,
         and safety. This technical refresh will provide the 800 existing computer
         workstations with modern hardware and software designed to work
         specifically with the ERAM Release #1 software and ERAM hardware.
         FAA recently completed price negotiations with the ERAM prime
         contractor for the workstations. The Agency expects the final cost will be
         about $205 million.




11
     Display System Replacement is the last remaining system with linkage directly traceable to AAS.
                                                                                                            5


Figure 4 illustrates key ERAM schedule milestones for EBUS and ERAM
Release #1. (The modified Display System Replacement workstations will be
fielded with Release #1.)


                    Figure 4. ERAM Major Schedule Milestones


                                                                       ERAM
                              EBUS                                   Release #1
                             Last Site                               Operational
                            Operational                                2nd Qtr
                              3nd Qtr                                      FY09
                               FY06




        | FY 2005      | FY 2006          | FY 2007   | FY 2008      |FY 2009      | FY2010       |FY2011


                                                                                                ERAM
                EBUS                                       Government                         Release #1
                Initial                                     Acceptance                         Last Site
              Operational                                  Testing and                        Operational
              Capability                                Fielding of ERAM                        1st Qtr
                3nd Qtr                                     Release #1                           FY11
                 FY05                                         3nd Qtr
                                                               FY08




FAA Can Reduce Risk With ERAM by Maximizing Fixed-Price
Agreements
One of the largest cost risks in the ERAM program is FAA’s ability to control the
cost of the prime contract. FAA is pursuing ERAM through a predominantly
long-term cost-reimbursable contract that places most of the risk with the
Government because the contractor is entitled to be reimbursed for all authorized
costs, even if the contractor overruns estimates. (In contrast, the use of fixed-price
contracting could reduce the cost and risk to the Government because the burden
of cost overruns falls on the contractor.) Our work on a wide range of cost-
reimbursable contracts for major FAA acquisitions shows FAA’s historical
inability to manage long-term, complex automation projects, leading to significant
cost growth.12

Specifically, we reported in 2002 that FAA has had a very difficult time
controlling costs with this type of contract vehicle.13 Last year, we again reported
that FAA’s management of cost-reimbursable contracts was deficient, lacked

12
     OIG Report Number AV-2003-045, “Status of FAA’s Major Acquisitions,” June 27, 2003.
13
     OIG Report Number FI-2002-092, “FAA’s Oversight of Cost-Reimbursable Contracts,” May 8, 2002.
                                                                                                              6


accountability, and did not adequately protect against waste and abuse.14 Other
audits on cost-reimbursable contracts that we have conducted have found that
FAA officials did not (1) obtain audits of billions of dollars in expenditures,
(2) ensure reliable Government cost estimates were prepared and used in
evaluating contracts, and (3) properly account for billing and expenditures to
prevent overpayments.

Currently, the ERAM prime contract with Lockheed for ERAM Release #1
development and deployment and technical refresh of about 800 controller
workstations is valued at about $1.2 billion. Figure 5 shows the cost breakdown of
the principal elements of the contract.


           Figure 5. ERAM Contract Is Currently Valued at About
                              $1.2 Billion


       ERAM Release #1
         Development
         $797 million




     Enhanced Back-Up                                                                       Contractor Incentives,
     Surveillance, $39.2                        ERAM Deployment,                                 $27 million
          million                                  $317 million




While cost-reimbursable contracts may make sense when an agency faces a
program with significant and complex development, FAA has historically had
difficulty effectively managing these types of contracts. For instance, FAA’s AAS
and STARS contracts were both of the cost-reimbursable type, but due to a
number of factors, including requirements changes and inadequate Government

14
      OIG testimony Number CC-2004-038 before the Senate Appropriations Subcommittee on Transportation, Treasury
      and General Government, “Key Issues for FAA’s FY 2005 Budget,” April 22, 2004.
                                                                                 7


cost estimates, the scope of the work and cost growth for both became
unmanageable.

For ERAM, FAA has established defined requirements for software Release #1
and has implemented controls to manage requirements and cost growth. We note,
however, that the scope of other planned ERAM work, such as the development of
software Releases #2 and #3 to provide additional capabilities, has not been
defined and negotiations have not yet begun. Additionally, there are a number of
other contract elements that have not yet been defined or priced, such as hardware,
logistics, and maintenance. Until contract negotiations are completed for all
program elements, the Agency cannot quantify with any real precision whether the
program’s budget baseline of $2.1 billion can be achieved.

We believe that by focusing on the development and deployment of Release #1
and avoiding the uncertainty of less well-defined elements in software Releases
#2 and #3, FAA will be in a better position to effectively manage the remaining
elements of the ERAM cost-reimbursable contract. Moreover, in our opinion, the
remaining elements that have not been negotiated (e.g., Releases #2 and #3,
training, logistics and maintenance) are candidates for fixed-price agreements.

Table 1 illustrates key ERAM contract elements, with the value of those that have
been negotiated. Table 1 also shows the key contract elements that have not yet
been negotiated.
                                                                            8




 Table 1. Key ERAM Contract Elements, Target Price, and Types
         Contract Element         Contract           Contract Type or
                                Target Price           Candidates
                                (in Millions)
 Enhanced Back Up Surveillance $40.7            Cost Plus Incentive Fee with
                                                Schedule Incentive
 ERAM Release #1: Design,         $797.0        Cost Plus Incentive Fee
 Develop, Test (includes Radar
 Position Workstations)
 Release #1 Equipment &           $317.3        Cost Plus Incentive Fee
 Installation
 Release #1 Incentives            $25.2         Fixed When/If Awarded
 Release #1 Training              $2.0 + TBD*   Fixed-Price Candidate
 General Information Processing   TBD           Fixed-Price Candidate
 Systems
 Task Orders/Technical            $0.4          Labor: Time and Materials,
 Directions                                     Other Direct Costs: Cost Plus
                                                Fixed Fee or Cost-
                                                Reimbursable
 On-Site Maintenance Support      TBD           Fixed-Price Candidate
 Contractor Depot Logistics       TBD           Fixed-Price Candidate
 Support
 Second Level Engineering         TBD           Fixed-Price Candidate
 Support
 System Extensibility and         TBD           After Requirements and
 Enhancements (Releases #2 and                  Specification Definition,
 #3)                                            Fixed-Price Candidate
 Optional Anchorage ERAM          TBD           If site is added to ERAM
 Capability                                     scope, Fixed-Price Candidate
 Anchorage Maintenance            TBD           Fixed-Price Candidate
 Support
 Technology Refresh               TBD           Fixed-Price Candidate
  Total of Currently              $1,182.6
  Negotiated Elements
* TBD: To Be Determined
                                                                                                            9



FAA Should Use Incentives To Effectively Control Contractor
Performance
To encourage good performance on the ERAM contract, FAA has negotiated a
plan to award Lockheed with variable fees for delivering contractual items below
contract cost targets. This means Lockheed can earn higher fees by completing
work under estimated cost. Conversely, should Lockheed exceed targeted cost,
contract fees diminish. For instance, if the final cost of EBUS is under the target
cost of $35.8 million, Lockheed’s fee could be as high as $5 million, but should
EBUS exceed the target cost, the fee decreases to a low of $2.1 million.

In addition to paying Lockheed a cost-based fee, FAA’s contract with Lockheed
rewards the contractor with incentives for achieving important schedule
milestones on time. For example, if FAA accepts ERAM Release #1 at its
Technical Center on schedule in October 2007, Lockheed could receive an
incentive payment of up to $4.1 million (see Table 2). Also, FAA has included
performance incentives in the ERAM contract to reward the contractor for
achieving specified performance criteria by certain dates.15 In contrast, the
Agency can withhold incentive payments from the contractor if criteria are not
met.

We are concerned, however, that historically FAA has accepted contractual items
that did not meet its performance criteria or met criteria that were inadequately
defined and so then required corrective action.

       • The STARS system—new controller displays and computers for FAA’s
         terminal facilities—was accepted by FAA even though numerous problems
         were identified during Government testing. Consequently, after FAA
         accepted STARS in Syracuse, NY, El Paso, TX, and Portland, OR, the
         Agency had to deal with serious radar tracker deficiencies that had been
         previously identified.

       • Likewise, the ATOP system—new automated systems for facilities that
         manage travel over oceans—completed factory acceptance testing
         12 months late, and numerous problems were identified. Nevertheless,
         FAA allowed the program to proceed to the next phase, site acceptance.16
         Subsequently, although FAA declared that ATOP was ready for initial
         operations at Oakland, CA, problems persisted. This resulted in the
         Agency adding $11 million to the value of the contract to resolve problems.
         Subsequently, FAA added another $20 million.

15
     ERAM performance criteria are defined in FAA’s (1) ERAM system specifications, (2) ERAM Statement of Work
     (“Shalls”), and (3) ERAM Test and Evaluation Master Plan.
16
     OIG Report Number AV-2004-037, “FAA’s Advanced Technologies and Oceanic Procedures,” March 31, 2004.
                                                                                                               10


After acceptance in both cases, the systems required significant cost and
development efforts to fix the problems.

To date, FAA has awarded Lockheed approximately $5.8 million in incentives, the
maximum that could be earned so far. Included in this amount, for instance, was
an incentive fee for submitting EBUS on time for testing by November 15, 2004.
However, FAA (in accordance with the contract) awarded only two-thirds of the
fee because of an unacceptable number of problems. According to FAA officials,
the EBUS problems were corrected in December 2004, and FAA authorized
payment for the remaining third of the fee.17

We note, however, that EBUS (with only 145,000 lines of code) is far less
complex than the future work remaining on ERAM. Therefore, due to increasing
complexity, future incentives may be more difficult to achieve and this may result
in lower incentive awards. Table 2 provides a list of the incentives in the ERAM
contract.


           Table 2. ERAM Contract Incentives and Award Criteria
      Incentive                         Award Criteria                          Amount in         Date
                                                                                 Millions

 EBUS                   Award is divided into 3 pieces:                        $1.5         Key Site Initial
 Schedule               (a) successful delivery of EBUS on                                  Operating
 Incentive              schedule, (b) passing Tech Center testing,                          Capability
                        and (c) achieving key site Initial Operating                        scheduled for
                        Capability on or before specified date.                             4/15/05
                        (Note: First two awards have been paid.)

 ERAM                    Completion of three design and                        $4.5         Completed prior
 Release #1              engineering reviews by specified dates.                            to scheduled date
 Design                  (Note: FAA awarded full incentive after                            of 12/15/04
 Schedule                determining Lockheed had met
 Incentives              requirements.)

 ERAM                   Completion of software development and                 $1.5         3/01/06
 Release #1             critical early software integration.
 Software
 Completion
 Schedule
 Incentive




17
     We did not verify that Lockheed met FAA’s criteria for receiving these awards.
                                                                                                                 11


    Incentive                          Award Criteria                         Amount in                 Date
                                                                               Millions

 System               An increased “Shall” (a mandatory                       $1.75             11/01/06 and
 Integration          requirement) pass rate at two checkpoints.                                3/01/07
 Milestones #1        The incentive is reduced for late
 and #2               completions and disappears 50 days after
                      the incentive date if not complete.

 Development          An increased “Shall” pass rate. The                     $3.45             9/14/07
 Test System          incentive is reduced for late completions
 Test                 and disappears 50 days after the incentive
                      date if not complete.*

 Tech Center          Completion of Government Acceptance no                  $4.1              10/1/07;
 Government           later than 5 days after specified date. A                                 successful
 Acceptance           portion of the incentive will be held back                                resolution of
 Schedule             pending successful resolution of identified                               identified
                      deficiencies before a specified date.                                     deficiencies no
                      Failure to complete by the date results in                                later than 90 days
                      loss of incentive.                                                        after specified
                                                                                                Government
                                                                                                Acceptance Date.

 Site                 Completion of Government Acceptance no                  $7.9              Government
 Deployment           later than 5 days after specified date. A                                 Acceptance Date
 Government           portion of the incentive will be held back                                specified for each
 Acceptance           pending successful resolution of identified                               site; successful
 Schedule             deficiencies before a specified date.                                     resolution of
                      Failure to complete by the date results in                                identified
                      loss of incentive.                                                        deficiencies no
                                                                                                later than 90 days
                                                                                                after specified
                                                                                                date.

 Initial              Completion of site Initial Operating                    $2.0              Initial Operating
 Operating            Capability no later than 5 days after the                                 Capability dates
 Capability           date specified in the contract. Failure to                                specified for each
 Schedule             complete by the date results in loss of                                   site; bonus if all
                      incentive.*                                                               sites reach this
                                                                                                status within 45
                                                                                                days of specified
                                                                                                dates.

* The Government, at its discretion, may award portions of this incentive even if the contractor does not meet
  incentive targets.



While the purpose of incentives is to encourage good contractor performance,
FAA also can take other approaches to ensure that the Government gets what it is
                                                                                   12


paying for. For instance, using contractual language to establish controls is
important. According to the ERAM contract, Lockheed is responsible for any
corrective actions necessary to ensure full specification compliance. The
contractor must complete repairs or rework before submission for regression
testing.

During Government test activities, the contractor must ensure that all detected
problems are promptly reported, corrective action is initiated; resolution is
achieved; and status is tracked, reported, and maintained. The contract also states
that all high-level problems must be corrected before FAA Technical Center
acceptance. If the contractor does not correct the deficiencies, the FAA
Contracting Officer has discretion to postpone further work until the problems are
corrected. Using this discretion could be especially important before FAA
certifies the system for Initial Operational Capability because it reduces the risk of
having to make costly modifications later.

In addition, to avoid problems that have affected other modernization efforts, FAA
must ensure that the system meets both functional and operational requirements
and that the contractor successfully meets all performance criteria. The Agency
should withhold performance-related incentives to ensure that ERAM meets the
Government’s performance criteria as demonstrated through testing. We note that
in response to our draft report, the Agency has committed to withholding incentive
or award payments to help ensure that hardware and software meet performance
requirements.

In summary, to control ERAM costs and reduce risk to the Government, FAA
should maximize the use of fixed-price agreements, rather than cost-reimbursable
ones, for contract elements that have not yet been negotiated. Taking this step is
consistent with FY 2005 congressional direction that encourages FAA to place
more reliance on fixed-price contracting with ERAM.


FAA Can Reduce Risk With Complex Software Development by
Limiting the Scope of Development
At this stage, FAA has obligated approximately $283 million for ERAM through
December 2004. Most of the expenditures to date have been devoted to
developing software Release #1, which FAA plans to field in FY 2008. FAA has
also been working on EBUS, the enhanced backup system for the Host.

However, EBUS (with 145,000 lines of code) is the least complex element of the
ERAM program, accounting for less than $40 million (or less than 2 percent) of
the $2.1 billion total. It may not be indicative of future progress to view EBUS in
FY 2005 as representative of future success for ERAM since the vast majority of
                                                                               13


ERAM work and cost focuses on developing Software Release #1 to replace the
Host beginning in 2009.

Successfully developing and deploying Software Release #1 is by far the most
complex element of the ERAM program. This work involves developing,
integrating, and testing 1.3 million lines of software code to replace the Host.
Table 3 compares the functionality of the Host to that of ERAM Release #1.


       Table 3. Functionality Comparison of Host and ERAM
                             Release #1
                                 Function                 Host     ERAM
                                                                  Release #1

    Radar Data Processing                                  X          X
    Flight Data Processing                                 X          X
    Safety Functions                                       X          X
    Real-Time Status and Trajectory Data                   X          X
    Departure to Arrival Route Conversion                  X          X
    Providing Full International Flight Plan Processing               X*
    Full Function Backup w/Safety Alerts                              X*
    Common User Interface for Primary and Backup
    (creates seamless transition from primary to backup
    system)                                                           X*
    Increased Surveillance Coverage (increases coverage
    from 1000 x 1000 nautical miles to 2000 x 2000
    nautical miles)                                                   X*
    Increase number of surveillance sources (increases
    from 22 radar sources to ERAM’s 64 radar and future
    satellite-based sources)                                          X*
    Process New Types of Surveillance Data (ERAM will
    integrate radar and non-radar sources, such as
    satellite-based navigation data)                                  X*
    Provide Increased Flight Track Accuracy and
    Decision Support Tools for Controllers                            X*
    Local Test and Training Capability                                X*
    Integrated User Request Evaluation Tools                          X*
    Integrated Weather Data on Controller Display                     X*
   * New or enhanced functions



Just for Release #1, over 1.3 million lines of computer code need to be developed,
integrated, and tested by FY 2008. Specifically, the ERAM contractor has to
develop about 577,000 lines of new or modified software code and integrate this
                                                                                                                      14


code with about 731,000 lines of reused code from other FAA programs, such as
automated controller tools.18 According to the contractor, about 252,000 lines of
new code were written as of December 2004. To be considered complete,
however, this code must be tested, first by the contractor and then by FAA. As a
point of reference, FAA has spent 8 years developing and testing software for
STARS, which includes more than 1.2 million lines of code.

While reusing code from other proven systems helps mitigate risk, FAA officials
caution that there is considerable potential for unanticipated problems. This is a
concern because the contractor is integrating software code written in different
programming languages and relying on three different entities (i.e., Lockheed,
CSC, and Raytheon) to develop and integrate the software. FAA officials point
out that this places a considerable need for systems integration and engineering
skills on both FAA and the contractors.

In November 2004, the ERAM prime contractor reported about 70,000 lines of
additional software code will be needed to meet FAA requirements. The need for
additional code is the result of problems with, among other things, integrating non-
developmental software items, such as a flight tracker. FAA officials believe this
growth in code is modest, representing less than 10 percent of the total code, and
the cost can be accommodated within the management reserve of the current
$2.1 billion baseline. However, further unexpected software growth could force
FAA either to adjust the baseline or reduce capabilities.

Planned future software Releases #2 and #3, which are to add additional
capabilities, currently have undefined requirements and undetermined costs. FAA
needs to avoid these uncertainties and focus on its primary ERAM objective—
replacing the Host. After ERAM Release #1, which is expected to cost $680
million to develop and deploy, is proven operationally and future requirements
become better defined, FAA should then pursue developing software for new
functionality candidates (see Table 4). This is consistent with the Fiscal Year
2005 Senate Appropriations Committee Report that calls for FAA to divide
ERAM into more manageable pieces. Table 4 lists “Candidate Functions” being
considered for Releases #2 and #3 and describes their potential benefit to the
ERAM system. Candidate capabilities include, among other things, tools to better
manage the flow of air traffic.




18
     FAA’s primary automated controller tool is the User Request Evaluation Tool (URET), which is now being fielded
     to all 20 En Route centers. URET introduced automated management of flight data and conflict probe which allows
     controllers to calculate quickly whether a pilot’s requested change to an approved flight plan will create a conflict
     with other approved flight plans.
                                                                                      15




                 Table 4. Functionality “Candidates” for
                        ERAM Releases #2 and #3
     Candidate Function                               Description

Increased Simulation and        Additional tools to allow live data (e.g., about aircraft
Scenario Execution Capability   and weather) to be combined with generated
                                (simulated) data for the development of worst-case
                                workload training scenarios
Increase Flight Information     Ability to provide additional information to the
Capability                      aircraft concerning altitude and desired routes of flight
                                available to assist in aircraft hand-offs between
                                controllers (less oral communication required)
Constraint and Restriction      Additional controller tools that consider airspace
Processing                      congestion due to weather and/or airspace closure
                                before aircraft rerouting
Special Activities              Provides the controller real-time planning and
Airspace/Temporary Flight       scheduling of airspace for military aircraft exercises or
Restrictions Status             other interests
Holding and Delay Information   Provides additional information to the controller, such
Processing                      as how long the aircraft has been in the holding
                                pattern or amount of delay to assign to an aircraft as a
                                result of airspace congestion
Increased Information           Automated data exchange of delay and aircraft flight
Exchange With Traffic Flow      reroute information between strategic and tactical
Management System               systems


We believe a modest restructuring of the software effort is warranted for two
reasons.

   • First, FAA will face technical and programmatic risks in adding many new
     features to ERAM Release #1 that do not exist in the Host, and the Agency
     has yet to decide how many additional capabilities it can realistically expect
     to integrate to Releases #2 and #3. A decision will not be made until mid to
     late 2005.

   • Second, current FAA projections show that inclusion of features to
     Releases #2 and #3 could be problematic within the $83 million the Agency
     presently is allotting for these features. For instance, according to ERAM
     program engineers, this allotment only allows for 70,000 lines of additional
     code for each release. Furthermore, at least half of this code is being
     reserved for required maintenance updates, leaving little new code available
                                                                                                                   16


            for additional features. In our opinion, therefore, trying to add additional
            features could result in unanticipated software code growth and cost.

These factors argue for focusing the scope of ERAM work on Release #1 and
deferring plans for additional ERAM features in Releases #2 and #3. By limiting
ERAM’s scope to what can be realistically delivered with the first ERAM
software release, the Agency can attain a modern hardware and software
replacement for Host as well as some new capabilities, such as increased
surveillance coverage, within the cost and schedule baseline. FAA can and should
pursue additional functions through a separate contract mechanism as they become
better defined. This could allow FAA to put the $83 million that was allocated for
Releases #2 and #3 to better use. This is also consistent with the FY 2005 Senate
Appropriations Committee report that called for FAA to divide ERAM into more
manageable pieces.


A Value-Engineering Analysis of ERAM Is Needed To Optimize
System Design and Identify Potential Cost Savings
The purpose of value engineering is to analyze a series of design alternatives and
consider appropriate trade-offs among system capabilities, schedules, costs, and
other factors and recommend the most cost-beneficial technical solutions to a
given problem.19 According to FAA, value engineering is to be performed in the
early stage of system development efforts. Although ERAM is well underway,
FAA could still benefit from applying value-engineering principles to ERAM.

Beginning in 1998, FAA performed a number of analyses to decide how best to
replace the Host computer system. The analyses explored three system design
alternatives, but did not consider replacing the 20 Host computers on other than a
one-for-one basis. FAA then selected the alternative of replacing each Host
computer with an ERAM computer system using a phased approach.
Subsequently, FAA selected Lockheed as the ERAM contractor but did not
examine the long-term supportability of the Ada software language that Lockheed
is using to develop ERAM.

We have identified these decisions—one-for-one computer replacement and
Ada—as solutions that should be subject to a value-engineering analysis. Because
FAA did not consider other alternatives and other software languages, the Agency
cannot know if it has selected the most optimal and cost-effective ERAM system
design for the long term (i.e., the estimated 18-plus years the system is expected to
be used.) As a result, FAA needs to do these analyses now.


19
     FAA policy directs the following factors to be included in a value-engineering analysis: reliability, testability,
     supportability, survivability, compatibility, and producibility.
                                                                                                         17


Consider Alternative Ways To Deploy ERAM To Support the 20 En
Route Centers
To reduce technical risk, FAA plans to deploy 20 ERAM computer systems to its
20 En Route facilities, the Host configuration setup established in the 1960s.
However, technological advances may allow FAA to deploy ERAM computers at
fewer than 20 En Route centers while providing equally reliable surveillance,
flight plan, and communications services. Furthermore, in recent years, FAA has
invested in more reliable and less expensive telecommunications capabilities to
connect its centers. Potentially, the Agency could also realize lower ERAM life-
cycle costs. Although a value-engineering analysis is not synonymous with a
consolidation study, FAA may find that deploying a full ERAM computer system
at each En Route facility may not be the most cost-effective configuration to
replace the Host.

The number of computer processing sites is one of the main drivers in determining
system life-cycle costs. Generally speaking, the more processing sites used, the
more computer and telecommunication equipment needs to be acquired.
Centralizing computer processing can result in significant savings. For instance,
the Office of Management and Budget estimates that by consolidating 22 payroll
systems, the Federal Government will save $1.2 billion over the next decade.20
Likewise, in a March 10, 1997 Department of Defense letter to the (then) General
Accounting Office, Defense reported that consolidating 194 of its computer
centers into 16 centers reduced cost by approximately $500 million annually. We
believe that FAA could also potentially realize savings by centralizing ERAM
computer processing and should analyze the opportunities to do so.

Table 5 shows FAA’s ERAM life-cycle cost estimates under the current design
approach—fielding 20 ERAM computers to the 20 En Route facilities and keeping
the systems for 20 years.




20
     Office of Management and Budget News Release 2003-01, “New E-Payroll Program Estimated To Save More Than
     $1 Billion,” January 15, 2003.
                                                                                  18




  Table 5. FAA’s ERAM Life-Cycle Cost Estimates and Potential
       Effects of Fielding ERAM at Fewer Than 20 Centers

 ERAM Life-Cycle Category           Lifecycle Cost        Potential Effects of
                                       Estimate        Fielding ERAM at Fewer
                                    ($ in Millions)        Than 20 Centers

 Program Management                       $200        No likely impact
 System Engineering, Design, and          $690        Increased costs to rewrite
 Coding                                               software, and realign
                                                      surveillance and
                                                      telecommunication lines
 Hardware Design, Development,            $380        Lower hardware procurement
 and Procurement                                      costs
 Test, Evaluation, and                    $433        Lower implementation and
 Implementation                                       higher testing costs
 In-Service Management and              $1,872        Lower operating costs from
 Maintenance                                          maintaining and upgrading
                                                      fewer systems
  Total Cost Estimate                   $3,575


A value-engineering analysis would help FAA make an informed decision based
on cost-effectiveness over the entire ERAM life cycle. While it is preferable to do
this analysis at an earlier stage, it is still not too late to complete this analysis
because of the design approach adopted by the ERAM team. The ERAM design
team is using an open, modular design approach to develop the software code,
which allows a higher level of adaptability to changes. Therefore, FAA has the
opportunity to adapt its ERAM hardware acquisition to a more cost-effective
approach. FAA is planning to finalize the acquisition of its hardware in FY 2007.

We discussed the potential benefits of performing this value-engineering analysis
with FAA officials. They agreed that a value-engineering study could be
performed to determine the most cost-effective design alternative because there
may be a more cost-effective way to deploy ERAM. FAA officials indicated that
the current plan for a one-to-one replacement of systems at all En Route facilities
was adopted because it presented a lower technical risk (i.e., it requires fewer
hardware and software changes and no realignment of surveillance and
communication lines). Considering the magnitude of potential cost effects, FAA
should complete, within 12 months, a cost-benefit analysis to determine the most
cost-effective alternative for deploying ERAM.
                                                                                 19


Examine the Long-Term Supportability of the Ada Software Language
Used To Develop ERAM
FAA’s prime contractor, Lockheed, is writing some new software code for ERAM
using the Ada software programming language. Ada is considered technically
suitable for developing systems like ERAM that require high integrity. Lockheed
used Ada while programming software for FAA’s AAS program, which was to
have replaced Host during the 1990s. As shown in Table 6, Lockheed’s current
plan is to have about 50 percent of ERAM code programmed in Ada.

                Table 6. Estimated ERAM Lines of Code
                       Total Lines of      Programmed in         Percentage of
                      Code Estimated            Ada              Code in Ada

 Reused Codes              731,573              415,190               57%

 New Codes                 577,757              217,255               38%

  Total                   1,309230              632,545               49%



Since the mid-1990s, use of Ada has steadily decreased in the computer industry,
which now favors the “C” and “C++” programming languages. As a result, the
Department of Defense dropped the mandatory use of Ada in its major acquisition
programs. In addition, the National Aeronautics and Space Administration has
reduced its use of Ada for developing new systems. A number of schools, such as
the University of Virginia, have also stopped offering Ada courses due to a lack of
student interest. Consequently, FAA faces a shared risk that the number of
personnel trained in Ada may be limited in the future. In that case, costs to
maintain the ERAM software over its life cycle could increase significantly. This
is an important issue because, on average, software maintenance accounts for
about 80 percent of total life-cycle software costs.

Part of FAA’s modernization strategy for the National Airspace System is to avoid
use of proprietary or specialty software and take advantage of commercial
development power. While Ada is not in danger of becoming obsolete, it is
clearly in the specialty category. FAA has prior experience with a specialty
software language. In fact, one of FAA’s justifications for developing ERAM is
the difficulties in finding experienced JOVIAL programmers to maintain the Host
System. In late 1990s, FAA paid a high premium to make the JOVIAL-based
software for the Host computer “Year 2000 Compliant” because of a shortage of
JOVIAL programmers. To mitigate a similar risk with Ada, FAA needs to
conduct a value-engineering analysis that examines the long-term supportability of
                                                                                                               20


Ada and develop a contingency plan to reduce risk associated with migrating from
Ada to another software language.


Significant Work on Developing Effective Computer Security Plans
Needs To Be Done Sooner Rather Than Later
The critical importance of FAA’s En Route system and the recent emphasis on
addressing vulnerabilities to the nation’s vital computer infrastructure underscores
the need to address computer security in ERAM. FAA requires that computer
security risks associated with acquisition projects be assessed early and that
security plans and requirements be developed to ensure that the risks are properly
mitigated during the system design phase. This is important because it is much
less expensive to build good security into the system than it is to add security
features later. The computer industry estimates that it costs 10 times more to add a
feature to a system after it has been designed than to include the feature at the
initial design phase.

Lockheed developed a preliminary risk assessment for ERAM in 2004. The
ERAM product team used FAA’s assessment methodology and assessed security
risks associated with the ERAM preliminary system design. According to FAA
officials, mitigation plans are under development based on the preliminary
assessment in accordance with FAA guidance. However, the ERAM product team
did not involve ATC staff with operational knowledge and experience while
developing its preliminary assessment. The ERAM product team should review
prior ERAM reports on En Route security management and controls to ensure that
these findings are considered in developing risk assessments and security plans for
ERAM.

In the preliminary assessment, FAA divided ERAM computer-related resources
into components (assets) to assess the risk. The assessment identified those assets
that would have a significant impact on overall ERAM operational integrity and
availability, and we reported on them in 2004.21 FAA security policies require
mitigation plans be developed to protect these assets. According to FAA officials,
mitigation plans are under development and are expected to be completed in early
2008. To improve the ERAM computer security design, FAA needs to continue
assessing risk and develop effective mitigation plans by engaging personnel with
operational and security experience, including field personnel, to assist in
identifying threats posed to ERAM system security.




21
     Specific examples are considered Security Sensitive Information by FAA. OIG report “Security and Controls Over
     Technical Center Computer Systems,” November 5, 2004.
                                                                                  21


CONCLUSIONS AND RECOMMENDATIONS
ERAM is in the early stages of a program that will span 7 years and completely
replace the automation system for managing high-altitude traffic. FAA can take
proactive steps to control costs, stay on track, and set expectations for this multi-
billion dollar program that are consistent with the congressional direction provided
in the FY 2005 Senate Appropriations Committee Conference Report. We
recommend that the Federal Aviation Administrator:

       1.     Maximize the use of fixed-price agreements and ensure requirements
              are well defined to reduce cost risk for elements of ERAM, such as
              training and logistics support, that have not been negotiated.

       2.     Withhold award of performance-related incentives and not accept
              ERAM from the contractor until the contractor demonstrates the
              system meets the Government’s performance criteria.

       3.     Focus the scope of ERAM software development and maintenance
              on Release #1 and defer developing additional capabilities until
              Release #1 passes developmental/factory acceptance testing. This
              could allow FAA to put to better use projected funding for Releases
              #2 and #3. After ERAM Release #1 is tested and additional
              capabilities and costs become better defined, FAA should pursue
              developing additional capabilities using fixed-price agreements.

       4.     Complete value-engineering analyses (a) in 12 months for the life-
              cycle cost benefits for fielding ERAM computers at fewer locations
              than planned; and (b) in 6 months for the long-term supportability of
              the Ada programming language while developing a contingency plan
              for migrating ERAM from Ada to another software language.
              Senior FAA and departmental management should be informed of
              the results as soon as is practical.

       5.     Engage personnel with En Route operational security experience to
              participate in developing the next release of the ERAM risk
              assessment. FAA should also develop mitigation plans to protect the
              system assets deemed critical to ERAM operations as part of the
              updated ERAM risk assessment.
                                                                               22




EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
We conducted this review at the direction of the Senate Appropriations
Committee, Subcommittee on Transportation, Treasury, and Independent
Agencies. In reviewing ERAM, our objectives were to (1) determine whether
FAA’s ERAM acquisition plan is executable, (2) identify risks to the executability
of the program, and (3) assure that computer security design issues are being
addressed. To address our objectives, we first acquired ERAM planning data
identifying cost, schedule, technical requirements, and computer security goals of
the program. We also acquired historical and other data related to FAA’s
preliminary work to develop a technical and investment framework for ERAM, as
well as a copy of FAA’s contract with Lockheed Martin, the ERAM prime
contractor.

To determine whether FAA’s ERAM plan is executable within the broad scope of
the program, we analyzed the cost, schedule, requirements, and technical data.
We included in our analysis the results of interviews and briefings from FAA
ERAM program office engineers and engineers and cost analysts from Lockheed.
These interviews covered various aspects of the program ranging from the contract
and the system capabilities of the Host to the proposed capabilities of the new
system.

To identify ERAM technical risks, we reviewed each of the major elements of the
ERAM program, including the planned interim backup replacement of the Host,
EBUS; ERAM Software Release #1; and the Display System Replacement (i.e.,
Radar Position Work Stations). Additionally, to identify cost risks, we reviewed
FAA’s ERAM investment analysis, the elements of the ERAM cost-reimbursable
contract with Lockheed, and other decision and planning documents to determine
whether FAA cost estimates are realistic.

While conducting our review, FAA awarded incentive payments valued at
$5.8 million to Lockheed for meeting performance goals. We did not verify that
Lockheed did indeed meet FAA’s criteria for receiving these awards.

To determine whether FAA has assurance that computer security issues are being
addressed, we worked with Office of Inspector General Information Technology
Audit Staff who reviewed FAA’s and Lockheed’s proposed plans for ERAM
computer security and Lockheed’s Computer Security Risk Assessment. We also
reviewed the ERAM high-level security and integration requirements and
applicable Government and industry computer security standards and compared
these with proposed ERAM security plans. We also considered FAA’s plans to
integrate ERAM with existing and future systems in the National Airspace System
to ensure that ERAM is properly aligned with other Agency programs.


Exhibit A. Objectives, Scope, and Methodology
                                                                              23


While conducting this review, we interviewed key FAA officials at the Agency’s
Headquarters in Washington, DC. We also interviewed prime contractor officials
at the contractor’s primary ERAM location in Rockville, Maryland. Additionally,
we visited the FAA Air Route Traffic Control Center for the Washington Region
in Leesburg, Virginia, and the FAA Technical Center in Atlantic City, New Jersey,
and met with En Route program officials. We also met with FAA personnel
responsible for conducting EBUS and ERAM testing and acceptance programs.

Outside of FAA, we met with technical and financial managers from the Defense
Contract Audit Agency in Rockville, Maryland. To address a related Hotline
Complaint, we interviewed a Hotline complainant and FAA Technical Center
officials from the En Route support division concerning FAA’s decision to field
EBUS in lieu of upgrading the existing backup system.

We performed our survey and verification work from September 2003 through
March 2005. We performed our work in accordance with Generally Accepted
Government Auditing Standards as prescribed by the Comptroller General of the
United States.




Exhibit A. Objectives, Scope, and Methodology
                                                                              24




EXHIBIT B. FAA’S PLAN TO TRANSITION FROM HOST TO
ERAM ARCHITECTURE, FY 2005 TO FY 2009




Subsystem Descriptions

HCS, or Host, is the existing air traffic control computer system for controlling
high-altitude air traffic.

DARC is the existing Host Backup system.

ECG is the communications gateway through which data from the surveillance
sources (e.g., radar) and telecommunications information are passed.

EBUS replaces DARC as the backup to the Host and will remain until ERAM
fielding is complete.

DSR workstations display radar data to controllers.


Exhibit B. FAA’s Plan to Transition From Host to ERAM Architecture,
FY 2005 To FY 2009
                                                                                25


ERAM Release #1 is the initial release of ERAM software. Release #1 will
eventually be installed on two sets of identical hardware, referred to as ERAM A
and ERAM B.

URET allows controllers to quickly calculate whether a pilot’s requested change
to an approved flight plan will create a conflict with other approved flight plans.

ERIDS provides electronically accessible aeronautical and controller operational
information.




Exhibit B. FAA’s Plan to Transition From Host to ERAM Architecture,
FY 2005 To FY 2009
                                26




Appendix. Management Comments
                                                                                   27


APPENDIX. MANAGEMENT COMMENTS

                  Federal Aviation Administration’s (FAA)
          Response to the Office of Inspector General’s (OIG) Report
          FAA Needs to Limit the En Route Modernization (ERAM)
                       Program’s Scope to Reduce Risk


General Comments: The En Route & Oceanic Services, En Route Program
Operations (ATO-E) office in its deliberative process prior to contract award,
evaluated different pricing strategies in order to obtain the best value to the
Government while minimizing overall development and deployment risks. The
team determined the best value would be a cost-plus incentive-fee development
and deployment pricing strategy. This pricing method provides the FAA the
ability to penalize the contractor (i.e., reduce fee) for cost over-runs as well as to
share in any costs under-runs. Additionally, the contract contains technical
performance and schedule award incentives to ensure the contractor: (a) completes
the effort under cost; (b) meets schedule milestones; and (c) satisfies performance
criteria in order to maximize profit. To mitigate technical risks and affordability
concerns associated with replacing the Host Computer System (HCS), the ERAM
Program was segmented as follows:

   ¾ Enhanced Backup Surveillance (EBUS)

          o Replaces current Direct Access Radar Channel (the backup system
            for the HCS)

          o Improves availability and reliability of surveillance data service

          o Provides safety alerts and additional weather on backup system

          o Deployment occurs in FY 2005-2006

   ¾ ERAM Release #1

          o Core capabilities plus some additional capabilities for HCS
            replacement

          o Deployment occurs in FY 2009-2010




Appendix. Management Comments
                                                                                   28


    ¾ En Route Information Display System (ERIDS)

          o Provides information access system for En Route controllers
            including Notices to Airmen. This provides an incremental step
            toward replacing HCS function.

          o Production system based on prototype capability currently
            operational at 3 sites

          o Deployment occurs in FY 2006-2008

¾    ERAM Releases 2 and 3

          o Software maintenance

          o Future capabilities for further benefits realization

          o Deployment occurs in FY 2009-2011

Recommendation #1: Maximize the use of fixed-price agreements and ensure
requirements are well-defined to reduce cost risk for elements of ERAM, such as
training and logistics support that have not been negotiated.

Response: Concur. Future ERAM work activities, such as On-Site Maintenance
and Contractor Logistics Support, will be assessed to determine the appropriate
contract pricing strategy, including fixed-price. The ERAM Program Office has
determined that ERIDS National Deployment will be acquired using a fixed-price
strategy. The estimated definitization of this contract line item is the first quarter
of FY 2006. It has been and will continue to be the FAA’s policy to structure and
price a contract to provide the overall best-cost value to the Government. While
fixed-price contracting does limit the Government’s liability, it does not always
provide the best value, especially for support services where the cost over-run risk
is low.

The ERAM Program Office believes that some of the items listed in Table 1, Key
ERAM Cost Elements, Target Price, and Types, are not well suited to firm-fixed-
price contracting. There is considerable risk, based on our extensive en route
automation experience that the Government may overpay for Second Level
Engineering Support and System Extensibility/Enhancements when using firm-
fixed pricing for these work activities.

Recommendation #2: Withhold award of performance-related incentives, and not
accept ERAM from the contractor, until the contractor demonstrates the system
meets the Government’s performance criteria.



Appendix. Management Comments
                                                                                   29


Response: Concur. The ERAM contract was formulated to include award
incentives to motivate the contractor to meet the Government’s cost, schedule and
performance objectives and to maximize financial compensation.                The
performance-related incentives describe specific criteria prior to William J.
Hughes Technical Center (WJHTC) Government Acceptance. The ERAM
Program Office believes that these incentives will keep the contractor focused on
performance quality throughout the development cycle and will ultimately result
in a better product. The incentive criteria will also allow the Program Office to
gauge software quality at various milestones as well as the ability to compare
these results to past en route automation programs.

The FAA will not award incentives unless the contract criteria are appropriately
satisfied. For example, the FAA withheld one-third payment of EBUS schedule
incentive until a high open Problem Trouble Report (PTR) was corrected and
verified. The PTR resolution effort took      4 months after which the remaining
one-third incentive payment was made. With respect to WJHTC Government
Acceptance, the contract contains specific thresholds for PTRs in order to achieve
successful ERAM Development System Test Readiness Review and WJHTC
Government Acceptance. ERAM system acceptance will not occur until the
acceptance criteria specified in the contract is fully satisfied. The estimated
completion date is the third quarter of FY 2008.

Recommendation #3: Focus the scope of ERAM software development and
maintenance on Release #1 and defer developing additional capabilities until
Release #1 passes developmental/factory acceptance testing. After ERAM
Release #1 is tested and additional capabilities and costs become better defined,
FAA should pursue developing additional capabilities using fixed-price
agreements.

Response: Concur. The ERAM program will not begin developing additional
capabilities beyond Release #1 until after developmental factory acceptance
testing is completed and the requirements are better defined. The ERAM team
will support the refinement of future requirements in an effort to effectively and
accurately estimate their costs. The Release #1 factory acceptance is currently
planned for completion in third quarter of FY 2007. While the FAA understands
the Inspector General's reasoning behind suggesting the use of fix-priced
agreements, the conditions by which fix-priced agreements should be used should
vary with the type of work. As stated in our response to recommendation #1, all
un-priced work will be assessed to determine the appropriate contract pricing
strategy, including fixed-price. It has been and will continue to be the FAA's
policy to structure and price a contract to provide the overall best-cost value to the
Government.




Appendix. Management Comments
                                                                                  30


Recommendation #4: Complete value engineering analyses for: (a) the life cycle
cost-benefits for fielding ERAM computers at fewer locations than planned in 12
months; and (b) the long-term supportability of the Ada programming language in
6 months while developing a contingency plan for migrating ERAM from Ada to
another software language. Senior FAA and departmental management should be
informed of the results as soon as practical.

Response: Concur. As noted in the report, the ERAM Program's office decision
to pursue a one-for-one replacement of existing systems with ERAM was to
minimize technical risk. To better understand the potential cost savings, FAA
System Engineering has begun initial studies to support a lifecycle benefit-cost
analysis of alternate deployment scenarios. The lifecycle benefit-cost analysis is
planned for completion in the second quarter of FY 2006. System Engineering
will present the analysis results to senior FAA management and make any
necessary changes to the Enterprise Architecture. The ERAM Program's technical
decision to use the Ada software language for specific software components was
based on its well-documented high-integrity, high performance, high security, and
safety assurance characteristics. In addition, the use of Ada was judged to provide
best value in cases where significant amounts of existing software could be reused
and extended to meet ERAM needs. In an effort to better understand the long term
lifecycle costs associated with that decision, the ERAM Program has commenced
a long-term supportability analysis that will include a contingency plan to migrate
from Ada in the future, if a lack of affordable support for the language makes it
necessary. This analysis is planned for completion in the 4th quarter of FY 2005.

Recommendation #5: Engage personnel with En Route operational security
experience to participate in developing the next release of the ERAM risk
assessment. FAA should also develop mitigation plans to protect the system
assets deemed critical to ERAM operations as part of the updated ERAM risk
assessment.

Response: Concur. Both air traffic controllers and maintainers of the system
throughout the requirement validation and design developmental phases reviewed
the ERAM security requirements and design. Personnel with En Route
operational security experience will continue to be involved in the validation of all
security documents. Personnel with En Route operational security experience and
the Information System Security Manager who supports the Designated
Approving Authority will also review the security designs and documentation.
The ERAM Security Risk Assessment Plan will be available in the first quarter of
calendar year (CY) 2008.

The ERAM Security Risk Mitigation/Remediation Plan will provide
recommendations to mitigate high and medium risk areas. This plan will discuss
how all assets are protected by technical, operational, management, physical, and

Appendix. Management Comments
                                                                          31


personnel controls that are incorporated into the ERAM system design. The
ERAM Security Risk Mitigation/Remediation Plan will be available in the first
quarter of CY 2008.




Appendix. Management Comments
